la
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

September Term, 2019
Filed on: December 2,2019

No. 19-7006
Samuel Pierce,
Appellant
v.
Yale University, etal.,
Appellees

Appeal from the United States District Court
for the District of Columbia
(No. l:17-cv-02508)
Before: Henderson, Tatel, and Katsas, Circuit
Judges.
JUDGMENT
This appeal from the United States District Court
for the District of Columbia’s order granting defend­
ants’ motion to dismiss was presented to the court and
briefed and argued by counsel. The court has accorded
the issues full consideration and has determined that
they do not warrant a published opinion. See D.C. Cir.
R. 36(d). For the reasons stated below, it is hereby
ORDERED and ADJUDGED that the judgment
of the district court be affirmed.

2a
The district court dismissed the complaint be­
cause Pierce failed to allege antitrust standing. With­
out addressing whether Pierce has antitrust standing,
we affirm on a different ground. See Skinner v. Depart­
ment of Justice, 584 F.3d 1093, 1100 (D.C. Cir. 2009)
(“[T]his court can affirm a correct decision even if on
different grounds than those assigned in the decision
on review, a principle particularly applicable when re­
viewing a dismissal for failure to state a claim.” (inter­
nal quotation marks omitted)). Pierce’s conclusory
factual allegations are insufficient to plausibly sustain
his antitrust claims. See Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (“To survive a motion to dismiss, . . . the
plaintiff [must] plead [] factual content that allows the
court to draw the reasonable inference that the defend­
ant is liable for the misconduct alleged.”).
The Clerk is directed to withhold issuance of the
mandate herein until seven days after resolution of
any timely petition for rehearing or petition for rehear­
ing en banc. See Fed. R. App. P. 41(b); D.C. Cir. R. 41.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Ken Meadows
Deputy Clerk

3a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
SAMUEL PIERCE,
Plaintiff,
Case No. 17-cv-02508
(CRC)

v.
YALE UNIVERSITY, et al.,
Defendants.

MEMORANDUM OPINION
Plaintiff Samuel Pierce wants to go to medical
school. Denied admission by every school to which he
applied, Pierce turned to the courts for a cure. He be­
gan by filing a federal lawsuit claiming that his rejec­
tion from Hofstra University’s medical school was the
result of intentional discrimination against “white An­
glo-Saxon Protestant [s].” See Pierce v. Woldenburg. No.
ll-cv-4248, 2012 WL 3260316, at *1, *3 (E.D.N.Y. Aug.
7, 2012). After that case was dismissed, Pierce unsuc­
cessfully sued the University of California in state
court, alleging he was denied admission to UCLA’s
medical school because of an “unlawful racial prefer­
ence favoring Hispanics.” See Pierce v. Regents of Univ.
of Cal.. B262545, 2016 WL 892015, at *4 (Cal. Ct. App.
Mar. 9,2016). Undeterred, Pierce filed this case assert­
ing a single claim under the Sherman Act. A lawyer,

4a
but proceeding pro se,1 Pierce here alleges that he was
not admitted to the Yale School of Medicine both be­
cause he is a white Republican and because of an anti­
trust conspiracy between medical schools to share the
names of successful applicants. The antitrust conspir­
acy, Pierce contends, “enables” Yale and other schools
to discriminate against otherwise worthy applicants
like him who do not share Yale’s purported ideological
views.
Defendants have moved to dismiss Pierce’s
amended complaint for lack of standing and failure to
state a claim. Defs.’ Mot. to Dismiss (“MTD”), ECF 121. Soon after they filed that motion, Pierce moved to
strike the discrimination allegations made in the com­
plaint, to schedule oral argument, or, in the alterna­
tive, to transfer the case to the District of Maine. Pl.’s
Mot., ECF No. 13. He has also moved for a scheduling
order to allow limited discovery regarding his antitrust
claim. Pl.’s Am. Mot. for Scheduling Order, ECF No. 20.
For the reasons that follow, the Court will grant De­
fendants’ motion to dismiss and deny Pierce’s motions.
I.

Background

As required on a motion to dismiss, the Court
draws this factual background from the complaint, as­
suming the truth of all well-pled allegations. See Sissel
v. U.S. Dep’t of Health & Human Servs.. 760 F.3d 1, 4
(D.C. Cir. 2014). Defendants—Yale University (‘Yale”),
1 Although Pierce did not go to medical school, he did attend
law school and is barred in Maine. See ECF No. 4 at 21.

5a
the Trustees of the University of Pennsylvania
(“Penn”), and the Association of American Medical Col­
leges (“AAMC”) (collectively, “Defendants”)—naturally
dispute many of Pierce’s allegations. MTD at 5.
Pierce claims that he is “a magna cum laude grad­
uate of Penn’s undergraduate program who earned
perfect scores on the Medical College Admissions Test.”
First Am. Compl. (“FAC”), ECF No. 4, f 6. He applied
to a number of medical schools between 2009 and 2015
using AAMC’s application system. Id- f 36. Pierce was
one of approximately 700 applicants selected to inter­
view at Yale in 2015. Id- OT 6, 56. He was not, however,
offered admission to Yale or any other school to which
he applied. Id- H 3 8.
Pierce raises a single claim under Section 1 of the
Sherman Act, 15 U.S.C. § 1. FAC W 65-73. He frames
his complaint as a challenge to a conspiracy between
medical schools, including Yale and Penn, and AAMC
to share the names of successful applicants on the Mul­
tiple Acceptance Report (“MAR”), a list that Pierce says
is circulated among schools during each application cy­
cle. Id- % 2. He identifies three anti-competitive effects
of this alleged information-sharing conspiracy: (1) in­
creased tuition because accepted students have less
bargaining power to negotiate financial-aid packages;
(2) decreased overall acceptances because schools are
better able to anticipate matriculation rates and avoid
over-enrollment; and (3) decreased consumer choice
because schools are less likely to extend offers to stu­
dents already accepted elsewhere. Id- *11 4. He insists
that he would have gotten into the medical schools to

6a
which he applied, including Yale, if not for the MAR
conspiracy. Id. SI SI 6, 41.
Yet Pierce spends much of the complaint discuss­
ing another alleged cause of his rejection: “invidious”
discrimination. Id. SI 55; see also id. ‘If 30, 46-64.
Pierce alleges that Yale “stack[ed] the deck against
persons of Plaintiff’s race” (white) and political party
(Republican). Id- SI 66. As evidence, he maintains that
Yale seeks to achieve “thinly veiled, rigid racial quotas”
and that “a Black applicant is far more likely to be ad­
mitted to medical school than a White applicant.” Id.
SIS! 50,53. Pierce alleges that Yale also seeks to achieve
“ideological uniformity,” as demonstrated by state­
ments on its website expressing support for the Afford­
able Care Act (“ACA”). Id- SIS! 57-58. AAMC likewise
exhibits “bias against Republicans,” as indicated by an
e-mail it circulated in June 2017, also expressing sup­
port for the ACA. Id- *11 59. Yale’s bias was on display
during his 2015 interview, Pierce says, when “he was
interrogated . . . regarding his political preferences.”
Id- 'll 55. He suggests that “Black and Hispanic appli­
cants (who are assumed to share Yale’s required [lib­
eral] ideology)” were not similarly interrogated. IdAccording to Pierce, this political and racial dis­
crimination led Yale to reject his application despite
his “extraordinary talents,” id- SI 71:
A separate admissions track applied to the
Plaintiff where [he] was expected to produce
incontrovertible evidence that he had no ink­
lings of support for the Republican Party or
any ideas associated with it, which did not

7a
apply to any Black applicants. The Plaintiff
could not do so. Shortly after interviewing. . • >
Yale informed Plaintiff that it was denying
Plaintiff admission to the medical school.
Id. 'll 55. Pierce broadly alleges that the MAR “enables
this sort of political and racial discrimination” because
without access to the information on that report, “mar­
ket forces [would] constrain the ability of universities
to exact retribution on the Plaintiff (and others demographically similar to him) for the perceived sins of his
ancestors.” Id- H 56. To support this assertion, Pierce
spins out a “mathematical model” in his complaint
which estimates that, absent the MAR, Yale would
have to more than double the number of students it
admits in order to achieve its target class size. Id. ^[ 41.
Under this model, Pierce contends that Yale “would
have necessarily admitted” him had it not received the
MAR. Id. ff 6, 41.
II.

Standard of Review

Defendants move to dismiss the complaint for lack
of subject matter jurisdiction pursuant to Federal Rule
of Civil Procedure 12(b)(1) and for failure to state a
claim under Rule 12(b)(6). When analyzing a motion to
dismiss under either Rule 12(b)(1) or 12(b)(6), the
“court assumes the truth of all well-pleaded factual al­
legations in the complaint and construes reasonable
inferences from those allegations in the plaintiff’s fa­
vor, but is not required to accept the plaintiff’s legal
conclusions as correct.” Sissel. 760 F.3d at 4 (citation
omitted) (Rule 12(b)(6)); Jerome Stevens Pharm.. Inc.

8a
v. FDA. 402 F.3d 1249, 1253 (D.C. Cir. 2005) (Rule
12(b)(1)). To survive a 12(b)(1) motion, a complaint
must state a plausible claim that the elements of
standing are satisfied. See Humane Soc’v of U.S. v. Vilsack. 797 F.3d 4, 8 (D.C. Cir. 2015). And to survive a
12(b)(6) motion, the complaint must contain sufficient
facts that, if accepted as true, state a plausible claim
for relief. Ashcroft v. Iqbal. 556 U.S. 662, 678 (2009)
(quoting Bell Atl. Corp. v. Twomblv. 550 U.S. 544, 570
(2007)). Where a pro se plaintiff drafted the complaint,
the Court construes the filings liberally and considers
them as a whole before dismissing. See Schnitzler v.
United States. 761 F.3d 33, 38 (D.C. Cir. 2014).
III. Analysis
Defendants move to dismiss the amended com­
plaint on three grounds. First, they assert that the
Court lacks subject matter jurisdiction under Rule
12(b)(1) because Pierce lacks Article III standing. Sec­
ond, they maintain that Pierce has failed to state a
claim under Rule 12(b)(6) because his allegations are
noncommercial in nature and therefore fall outside the
scope of the Sherman Act, and because the alleged con­
spiracy is implausible on its face. And third, they argue
that the complaint must be dismissed because well-es­
tablished principles of academic deference prohibit the
Court from granting Pierce the specific relief he seeks,
which is admission to Yale Medical School.
The Court begins with standing. While Defend­
ants raise only Article III standing as a basis for

9a
dismissal, plaintiffs in antitrust cases confront two
separate standing hurdles. In addition to constitu­
tional standing, they must also satisfy the require­
ments of “antitrust” (or statutory) standing. Antitrust
standing “asks ‘whether the plaintiff is a proper party
to bring a private antitrust action.’” Johnson v.
Comm’n on Presidential Debates. 869 F.3d 976, 982
(D.C. Cir. 2017) (quoting Assoc. Gen. Contractors of
Cal.. Inc, v. Cal. State Council of Carpenters. 459 U.S.
519, 535 n.31 (1983)). And in this case, that means
whether Pierce has alleged an injury that “affect[s]
[his] business or property” and is “the kind of injury
the antitrust laws were intended to prevent.” Andrx
Pharm., Inc, v. Biovail Corp. Int’l. 256 F.3d 799, 806
(D.C. Cir. 200 1) (quoting Brunswick Corp. v. Pueblo
Bowl-O-Mat. Inc.. 429 U.S. 477, 489 (1977)).
As will be explained below, the Court concludes
that Pierce lacks antitrust standing and will dismiss
his suit on that basis. Antitrust standing is not juris­
dictional, however, at least in the constitutional sense.
In re Lorazapam & Clorazepate Antitrust Li tig.. 289
F.3d 98, 108 (D.C. Cir. 2002) (“[Jurisdiction does not
turn on antitrust standing.” (citing Assoc. Gen. Con­
tractors of Cal.. Inc.. 459 U.S. at 535 n.31)). It is
properly considered under Rule 12(b)(6). Andrx
Pharm.. Inc.. 256 F.3d at 804-05. So the Court is re­
quired first to assess Pierce’s Article III standing be­
fore moving to non jurisdictional grounds for dismissal.
See Steel Co. v. Citizens for a Better Env’t. 523 U.S. 83,
94-95 (1998).

10a
A. Constitutional Standing
Article III of the United States Constitution limits
the reach of federal jurisdiction to the resolution of
cases and controversies. See Dominguez v, UAL Corp..
666 F.3d 1359, 1361 (D.C. Cir. 2012). “[Standing ‘is an
essential and unchanging part of the case-or-controversy requirement,’ ” id- (quoting Lujan v. Defenders of
Wildlife. 504 U.S. 555, 560 (1992)), and “a necessary
‘predicate to any exercise of [federal court] jurisdic­
tion,’ ” id. (quoting Fla. Audubon Soc’v v. Bentsen. 94
F.3d 658, 663 (D.C. Cir. 1996) (en banc)). Accordingly,
“[e]very plaintiff in federal court bears the burden of
establishing the three elements that make up the ‘ir­
reducible constitutional minimum’ of Article III stand­
ing: injury-in-fact, causation, and redressability.” Id.
(quoting Lujan. 504 U.S. at 560-61). At the motion to
dismiss stage, “plaintiffs must plead facts that, taken
as true, make the existence of standing plausible.” In
re Sci. Applications Int’l Corp. Backup Tape Data Theft
Litig.. 45 F. Supp. 3d 14, 23 (D.D.C. 2014) (hereinafter
“SAIC”). This means Pierce must plausibly plead that
his alleged injury (rejection by Yale) is both “fairly
traceable” to the challenged conduct (the information­
sharing conspiracy) and “redressable” by the relief he
seeks (admission to Yale). See Sierra Club v. Jewell.
764 F.3d 1, 8 (D.C. Cir. 2014).
Pierce has plausibly alleged a “concrete and par­
ticularized” injury: he was rejected by Yale. See Lujan.

11a
504 U.S. at 580.2 A closer question is whether he has
plausibly alleged that this injury is “fairly traceable”
to the challenged conduct. See id. He alleges that shar­
ing of the MAR leads to artificially low acceptance
rates by enabling medical schools to more accurately
anticipate matriculation rates and avoid over-enroll­
ment. FAC ^ 4. It also decreases consumer choice,
Pierce claims, because schools are less likely to admit
a student already admitted elsewhere. Id- According to
Pierce, Yale’s ability to accept an artificially low num­
ber of students explains why he was rejected. Id. SI 56.
Defendants respond that Pierce lacks standing be­
cause he has alleged another, more direct cause of his
rejection from Yale: discrimination against his ilk. See,
e.g.. FAC M 55, 60. By including these allegations of
discrimination in the complaint, Defendants say,
Pierce “has pled facts (if taken as true) unequivocally
establishing that he was denied admission for reasons
wholly unrelated to the alleged antitrust conspiracy.”
MTD at 10. But Defendants misread the amended
complaint and misapply the relatively low standard of
causation that governs at the pleading stage of a case.

2 As explained above, Pierce identifies another injury caused
by the use of the MAR: an increase in tuition costs by reducing
admitted students’ bargaining power over financial aid. FAC 1 4.
Pierce, however, has not suffered this injury because he has never
been admitted to medical school and thus has never been in a po­
sition to bargain over tuition. Accordingly, this section focuses
only on Pierce’s other theory: that sharing of the MAR causes a
decrease in the number of admitted students, which led to his re­
jection from Yale.

12a
The Court reads Pierce’s complaint as alleging two
independent causes for his rejection from Yale. He
claims that his credentials qualified him for an admis­
sions interview but after the interview revealed his po­
litical leanings, Yale denied him admission because he
was a white Republican. FAC 1 55. Defendants are ob­
viously correct that Yale’s purported individual dis­
crimination against Pierce does not implicate the
antitrust laws.
But Pierce also alleges that sharing of the MAR
separately caused his rejection by enabling Yale to dis­
criminate against him. See id. 'll 56. Without the MAR,
he claims, “market forces” would have required Yale to
base its admission decisions solely on quantitative fac­
tors unrelated to his race or political party. Id- Yale
likely would have “foregone the interview process” en­
tirely, he asserts, because it would have been forced to
admit everyone, including him, who was deemed suffi­
ciently qualified by those measures to be offered an in­
terview. Id- In other words, Pierce alleges that if Yale
had not received the MAR, it could not have discrimi­
nated against him and would have been forced to ad­
mit him. Viewed in this light, Pierce’s “market forces”
theory of causation operates as an alternative alleged
cause of the injury he asserts.
That Pierce’s oft-repeated complaints of racial and
viewpoint discrimination may be the more direct (and
easily described) causal explanation for his rejection
does not defeat his constitutional standing at this
stage of the litigation. A plaintiff seeking to establish
Article III standing is not required to identify “the

13a
most immediate cause, or even a proximate cause, of
[his] injuries.” Attias v. CareFirst. Inc.. 865 F.2d 620,
629 (D.C. Cir. 2017). He need only show that the al­
leged injury is ‘“fairly traceable’ to the defendant.” Id.
(quoting Lexmark Int’l. Inc, v. Static Control Compo­
nents. Inc.. 134 S. Ct. 1377, 1391 n.6 (2014)). And, at
the pleading stage, he must simply allege facts that
plausibly support the proffered causal connection.
SAIC. 45 F. Supp. 3d at 23.3
Pierce has shouldered that relatively light burden.
The logical progression of his “market forces” theory
can be restated as follows: By knowing which appli­
cants other medical schools have admitted, Yale is bet­
ter able to predict which students will accept its offers
of admission. That ability, in turn, allows Yale to admit
fewer students to generate its target class size of ap­
proximately 80. The process leads to the exclusion of
3 Defendants cite Johnson v. Commission on Presidential
Debates. 202 F. Supp. 3d 159 (D.D.C. 2016), afTd 869 F.3d 976
(D.C. Cir. 2017), and Cheeks of North America. Inc, v. Fort Mver
Construction Com.. 807 F. Supp. 2d 77 (D.D.C. 2011), aff’d 2012
WL 3068449 (D.C. Cir. 2012) (per curiam), for the proposition that
Pierce lacks standing because he has alleged a more direct cause
of his injury than the antitrust violation. See MTD at 11. But nei­
ther case is on point. In Johnson, the court found that the plain­
tiffs lacked standing because their alleged injuries “occurred
before” the alleged antitrust conspiracy and thus were not fairly
traceable to the defendants’ subsequent conduct. 202 F. Supp. 3d
at 169 (emphasis in original). The court identified a similar prob­
lem in Cheeks, where the alleged bid-rigging conspiracy could not
have injured the plaintiffs because they had failed to comply with
various requirements to even participate in the bidding process.
807 F. Supp. 2d at 92. Here, by contrast, Pierce suffers no such
timing problem.

14a
other qualified candidates, including Pierce, that Yale
would have been forced to admit but for its access to
the MAE. And the number of these otherwise qualified
candidates would be so large (400 to 500 students, ac­
cording to Pierce’s “mathematical model”) that Yale
would not have been able to discriminate individually
against any one applicant. See FAC % 41.
There are a host of problems with Pierce’s theory
to be sure. For starters, his contention that Yale would
have to admit upwards of 500 additional students
strikes the Court as highly conjectural. And Pierce’s
model assumes, counterintuitively, that Yale would se­
lect its classes based purely on quantitative metrics
alone, as opposed to a range objective and subjective
criteria that Pierce may not satisfy. Furthermore, even
if Pierce is correct that barring the MAR would lead to
more offers of admission, he does not explain why Yale
still couldn’t practice the invidious discrimination he
alleges by simply interviewing more applicants and
continuing to weed out white Republications like him.
If it could, that might eliminate “market forces” as an
independent cause of his injury. These problems are
mostly factual, however. And as unlikely as it may
seem that the facts would ultimately bear Pierce’s the­
ory out, the Court hesitates to say that he has not
“plausibly” traced his rejection to the alleged MAR con­
spiracy. Pierce has therefore satisfied the causation

15a
prong of Article III standing at this stage of the litiga­
tion.4
B. Antitrust standing
Having satisfied itself that Pierce has plausibly al­
leged Article III standing at this stage of the case, the
Court may now move to antitrust standing.5
4 A few words on redressability. Defendants contend that the
Court, in deference to established principles of academic inde­
pendence, should not grant Pierce the sole explicit relief he seeks:
an order requiring Yale to admit him. Defendants do not couch
this argument in terms of standing. But it would appear to impli­
cate the redressability requirement of constitutional standing—if
the Court cannot give Pierce what he wants, then how can it re­
dress his injury? The answer is that, even if academic deference
counsels against ordering Yale to admit Pierce, the Court could
still issue an order declaring that the circulation of the MAR vio­
lates the Sherman Act. If the Court were to so rule, Pierce pre­
sumably would be able to reapply to Yale and his other chosen
schools. And if his theory of the case is correct, he would likely be
admitted, or at least his chances of admission would increase. The
Court’s ruling would therefore be at least a step towards the ulti­
mate relief Pierce seeks. That is likely sufficient to meet the
redressability requirement of constitutional standing. See Massa­
chusetts v. EPA. 549 U.S. 497, 525 (2007).
5 Defendants do not assert lack of antitrust standing as a
ground for dismissal. But the central inquiry her—whether the
plaintiff has alleged an antitrust injury—is essentially the same
one the Court would have to confront in resolving Defendants’ ar­
gument that Pierce has failed to state a claim under the Sherman
Act. See MTD at 12-14 (arguing that Pierce’s rejection from Yale
is not a commercial injury covered by the Sherman Act). Recent
D.C. Circuit precedent suggests that the proper approach is to
frame the issue in terms of statutory standing rather than failure
to state a claim. Johnson. 869 F.3d at 982-83. So the Court will
follow that lead.

16a
Again, to have standing to bring an antitrust
claim, Pierce must allege an injury that “affect[s] [his]
business or property” and is “the kind of injury the an­
titrust laws were intended to prevent.” Andrx Pharm..
Inc.. 256 F.3d at 806 (quoting Brunswick Corp.. 429
U.S. at 489). Pierce contends that the sharing of the
MAR among medical schools resulted in two anticom­
petitive effects: a reduction in the number of students
admitted and an increase in tuition due to diminished
financial-aid bargaining power on the part of admitted
students. Pierce has suffered the first injury, but it is
one that falls outside the reach of the Sherman Act.
And while the second injury may be the type the Sher­
man Act is designed to prevent, as noted previously,
Pierce has not suffered it.
The Sherman Act applies only to conspiracies that
restrain “trade or commerce.” 15 U.S.C. § 1. Thus, “sec­
tion one of the Sherman Act regulates only transac­
tions that are commercial in nature.” United States v.
Brown Univ.. 5 F.3d 658, 665 (3d Cir. 1993). Starting
with Pierce’s first alleged injury, decisions by academic
institutions about which and how many students to ad­
mit are noncommercial and therefore not covered by
the Sherman Act. See Selman v. Harvard Med. Sch..
494 F. Supp. 603,621 (S.D.N.Y.), aTd 636 F.2d 1204 (2d
Cir. 1980) (“Academic admissions criteria. . . . are []
non-commercial in nature. The Sherman Act was cer­
tainly not intended to provide a forum wherein dis­
gruntled applicants to medical school could challenge
their rejections.”); Donnelly v. Boston College. 558 F.2d
634, 635 (1st Cir. 1977) (per curiam) (holding that law

17a
schools’ admissions practices “do not have ‘commercial
objectives’” (quotation omitted)); see also Marjorie
Webster Jr. College. Inc, v. Middle States Ass’n of Col­
leges & Secondary Seh.. Inc.. 432 F.2d 650, 654 (D.C.
Cir. 1970) (“[T]he proscriptions of the Sherman Act
were tailored for the business world, not for the non­
commercial aspects of the liberal arts and the learned
professions.” (citations and internal alterations omit­
ted)). Yale’s decision to reject Pierce therefore cannot
support antitrust standing.
Granted, Pierce challenges not only his specific re­
jection, but also the process by which Yale arrived at
the number of students to admit. But that does not
convert his injury into a commercial one. The asserted
injury is still his rejection, which remains noncommer­
cial whether it resulted from the caprice of an admis­
sions officer or the calculus Yale used to set its
admissions targets. Cf. Mariorie Webster. 432 F.2d at
654 (holding that process of accrediting schools “is an
activity distinct from the sphere of commerce; it goes
rather to the heart of the concept of education itself”).
This is not to say that academic institutions can­
not engage in commercial conduct implicating the
Sherman Act. In United States v. Brown University. 5
F.3d 658 (3d Cir. 1993), for example, the Third Circuit
held that setting financial aid was a “commercial
transaction” related to charging tuition. Id- at 668. And
a judge of this court held in Jung v. Association of
American Medical Colleges. 300 F. Supp. 2d 119
(D.D.C. 2004), that the medical school residency match
program was commercial in nature due to its effects on

18a
resident physician compensation following medical
school. Id. at 173-74. Tellingly, both courts contrasted
the practices at issue in those cases with “distinctly
noncommercial” academic functions like medical
school admissions and college accreditation. See
Brown. 5 F.3d at 667-69 (citing Mariorie Webster. 432
F.3d at 654); Jung. 300 F. Supp. 2d at 170 (citing Selman. 494 F. Supp. at 621).
This brings us to Pierce’s second alleged anti-com­
petitive consequence of sharing the MAR: increased tu­
ition due to reduced financial-aid bargaining power.
While cases like United States v. Brown University
might support antitrust standing based on that alleged
injury, the rub for Pierce is that the alleged lack of bar­
gaining power only affects students who are admitted
to Yale. It is entirely irrelevant to Pierce, who has
never been admitted to medical school and thus has
never been in the position to bargain over financial aid.
Accordingly, the Court finds that Pierce has not al­
leged that he has suffered the type of injury that the
Sherman Act is designed to prevent. He therefore lacks
antitrust standing, and the Court will dismiss the
amended complaint on that basis. The Court need not
reach Defendants’ argument that dismissal is inde­
pendently required because courts should not second
guess admissions decisions by academic institutions.
C. Other pending motions
The Court will also deny Pierce’s “offer” to transfer
the case to the District Court for the District of Maine.

19a
See Pl.’s Mot. at 5-6. The Court “may transfer any civil
action to any other district or division where it might
have been brought” for the “convenience of parties and
witnesses, in the interest of justice.” 28 U.S.C.
§ 1404(a). As the movant, Pierce must demonstrate
that venue is proper in the District of Maine and that
it is in the interest of justice to transfer the case there.
Stewart v. Azar. 308 F. Supp. 3d 239, 244—45 (D.D.C.
2018). Under 28 U.S.C. § 1391(b)(2), venue is proper
where “a substantial part of the events or omissions
giving rise to the claim occurred.” Pierce represents in
conclusory terms that “a substantial portion of the
events in the conspiracy at issue, namely the victimi­
zation of medical school applicants resident in the
State of Maine by this scheme, occurred in [Maine].”
Pl.’s Mot. at 5. He fails, however, to identify any of these
applicants. Even if his assertion were sufficient to es­
tablish that the case might have originally been
brought in Maine, it appears that, contrary to Pierce’s
representation to the Court that he seeks to transfer
the case for convenience, id-, his true motivation is in­
appropriate forum shopping. See Defs.’ Opp’n Ex. B,
Email from S. Pierce to Defense Counsel (May 3, 2018
at 10:22 AM), ECF No. 14-2 (“I am considering refiling
in a different district (seeing as my uncle is best
friends with one of the 1st Circuit Judges, I think I
would be able to defend any ruling there. . . .)”).
Finally, because the Court will grant Defendants’
motion to dismiss, Pierce’s request for a hearing and
his amended motion for a scheduling order and discov­
ery plan are denied as unnecessary.

20a
IV. Conclusion
For the foregoing reasons, the Court will grant De­
fendants’ Motion to Dismiss and deny Plaintiff’s “Mo­
tion to Strike, to Transfer, to Argue, & to Extend” and
“Amended Motion for Scheduling Order and Proposed
Discovery Plan.” A separate Order shall accompany
this memorandum opinion.
/s/ Christopher R. Cooper______
CHRISTOPHER R. COOPER
United States District Judge
Date: January 10. 2019

21a
United States Court of Appeals
For the District of Columbia Circuit
September Term, 2019

No. 19-7006

1:1 7-cv-02508-CRC
Filed on: January 24, 2020
Samuel Pierce,
Appellant
v.
Yale University, et al.,
Appellees
BEFORE:

Garland,* Chief Judge, and Hender­
son, Rogers, Tatel, Griffith, Srinivasan, Millett, Pillard, Wilkins, Katsas,
and Rao, Circuit Judges
ORDER

Upon consideration of appellant’s petition for re­
hearing en banc, and the absence of a request by any
member of the court for a vote, it is
ORDERED that the petition be denied.

* Chief Judge Garland did not participate in this matter.

22a
Per Curiam

BY:

FOR THE COURT:
Mark J. Langer, Clerk
/s/
Michael C. McGrail
Deputy Clerk

23a
United States Court of Appeals
For the District of Columbia Circuit
September Term, 2019

No. 19-7006

1:1 7-cv-02508-CRC
Filed on: January 24, 2020
Samuel Pierce,
Appellant
v.
Yale University, et al.,
Appellees
BEFORE:

Henderson, Tatel, and Katsas, Cir­
cuit Judges
ORDER

Upon consideration of appellant’s petition for
panel rehearing filed on December 15, 2019, it is
ORDERED that the petition be denied.
Per Curiam

BY:

FOR THE COURT:
Mark J. Langer, Clerk
/s/
Michael C. McGrail
Deputy Clerk

